HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in
Nebraska," (A-07-07-03097)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the Medicaid
Drug Rebate Program in Nebraska," (A-07-07-03097)
April 10, 2008
Complete Text of Report is available in PDF format (755 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up audit of Nebraskas Medicaid drug rebate
program, we found that the State had not corrected all of the weaknesses
identified in our previous audit.  Manufacturers may make their outpatient drugs
eligible for Federal Medicaid funding by entering into a rebate agreement with
CMS and paying quarterly rebates to the States.  The State had corrected the
previously reported weakness in its dispute resolution hearing mechanism.
However, the State had not (1) developed a subsidiary accounts receivable
system that detailed all drug rebate transactions, including adjustments; (2)
reconciled the general ledger to the subsidiary accounts and to the Form
CMS-64.9R; (3) reconciled the quarterly cash receipts log to the Form CMS-64.9R;
(4) estimated and accrued interest on all overdue rebate balances; or (5)
reported interest received on the Form CMS-64 Summary Sheet instead of as a
rebate receivable.  Additionally, the State agency did not establish controls
over and accountability for collecting rebates on single-source drugs
administered by physicians.
We recommended that the State agency develop and follow policies and procedures
that include (1) ensuring that all adjustments are traceable to the subsidiary
accounts receivable system, (2) reconciling the general ledger account to the
subsidiary accounts and to the Form CMS-64.9R using actual adjustments supported
in the system, (3) documenting procedures for reconciling the quarterly cash
receipts log to the Form CMS-64.9R, (4) estimating and accruing interest on all
overdue rebate balances, and (5) reporting interest received on the Form CMS-64
Summary Sheet instead of as a rebate receivable.  We also recommended that the
State begin collecting drug rebates on single-source drugs administered by
physicians.  The State agreed with all of our findings and recommendations
except for the finding and recommendation regarding the reconciliation of the
general ledger to subsidiary accounts and to Form CMS-64.9R.